                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL



                     Follow-Up Report:
                     EPA Improves Management
                     of Its Radiation
                     Monitoring System
                     Report No. 14-P-0321                   July 22, 2014




Scan this mobile
code to learn more
about the EPA OIG.
 This is one of the U.S. Environmental Protection Agency Office of Inspector General’s
 products associated with issues related to the EPA’s radiation monitoring system. For details
 on related reports, go to:
                    http://www.epa.gov/oig/reports/2012/20120419-12-P-0417.pdf
               http://www.epa.gov/oig/reports/2009/20090127-09-P-0087_glance.pdf
             http://www.epa.gov/oig/reports/2006/20060426-2006-P-00022_glance.pdf




Report Contributors:                                 Eric Lewis
                                                     Dwayne Crawford
                                                     Christine Baughman
                                                     Andre von Hoyer II
                                                     Rodney Rice




Abbreviations

EPA            U.S. Environmental Protection Agency
MATS           Management Audit Tracking System
NAREL          National Analytical Radiation Environmental Laboratory
OAR            Office of Air and Radiation
OARM           Office of Administration and Resources Management
OIG            Office of Inspector General
RadNet         Radiation monitoring system


Cover photo: A stationary air monitor located in Montgomery, Alabama. (EPA OIG photo)



 Hotline                                        Suggestions for Audits or Evaluations
 To report fraud, waste or abuse, contact us    To make suggestions for audits or evaluations,
 through one of the following methods:          contact us through one of the following methods:

 email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
 phone:    1-888-546-8740                       phone:    1-202-566-2391
 fax:      1-202-566-2599                       fax:      1-202-566-2599
 online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

 write:    EPA Inspector General Hotline        write:    EPA Inspector General
           1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
           Mailcode 2431T                                 Mailcode 2410T
           Washington, DC 20460                           Washington, DC 20460
                        U.S. Environmental Protection Agency                                                  14-P-0321
                        Office of Inspector General                                                        July 22, 2014




                        At a Glance
Why We Did This Review                Follow-Up Report: EPA Improves Management
We performed this follow-up           of Its Radiation Monitoring System
review to assess actions taken by
the U.S. Environmental Protection      What We Found
Agency (EPA) to address the
recommendations in the Office of      Responsible EPA offices completed corrective              RadNet improvements
Inspector General (OIG) Report        actions on all seven recommendations we                   have increased the
No. 12-P-0417, Weaknesses in          reviewed. As a result of the completed corrective         EPA’s ability to assess
EPA’s Management of the               actions to date, the stationary air-monitoring            radioactive threats to
Radiation Network System              network increased in both coverage and                    the public and the
Demand Attention, issued April 19,    effectiveness.                                            environment.
2012. Our work focused on
actions that the EPA said were        Through its actions, the EPA increased the number of air monitors installed
completed as of January 10, 2014.     from 124 to 132, and the agency has eight additional monitors available for
Specifically, the EPA reported that   installation. Based on recent weekly status reports, an average of
it had completed seven of the         92.9 percent of installed monitors are operating. This is an improvement from
eight OIG recommendations from        the 80 percent of installed monitors operating in March 2011.
our 2012 report.
                                      As of the date we started our review, not all of the corrective actions
The EPA’s nationwide radiation        completed by the EPA were recorded in its official system for tracking
monitoring system (RadNet) is         corrective actions. However, as of April 22, 2014, the EPA completed all
designed to measure ambient           required actions and properly entered the data into its official tracking system.
levels of radiation in the            We were told that the completion of corrective actions for the remaining
environment and large-scale           recommendation (recommendation 8), involving the tracking of the installation
atmospheric releases of radiation.    of RadNet monitors, is scheduled for September 2014.
The RadNet includes, among
other things, a network of            EPA officials reviewed a draft of this report and informed the OIG that they
stationary air monitors that send     had no issues with the findings and thus no comments.
near-real-time measurements of
radiation to an EPA national
laboratory.

This report addresses the
following EPA goal or
cross-agency strategy:

  Addressing climate change
   and improving air quality.


For further information,
contact our public affairs office
at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2014/
20140722-14-P-0321.pdf
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460



                                                                                    THE INSPECTOR GENERAL



                                             July 22, 2014

MEMORANDUM

SUBJECT:       Follow-Up Report: EPA Improves Management of Its Radiation Monitoring System
               Report No. 14-P-0321

FROM:          Arthur A. Elkins Jr.

TO:            Janet McCabe, Acting Assistant Administrator
               Office of Air and Radiation

               Craig E. Hooks, Assistant Administrator
               Office of Administration and Resources Management

This is our report on the subject review conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions taken by the EPA. This report represents the opinion of the
OIG and does not necessarily represent the final EPA position. However, EPA officials reviewed a draft
of this report and informed the OIG that they had no issues with the findings and thus no comments.

Because this report contains no recommendations, you are not required to respond to this report and it
will be closed upon issuance. However, if you submit a response, it will be posted on the OIG’s public
website, along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do not want
to be released to the public; if your response contains such data, you should identify the data for
redaction or removal along with corresponding justification.

We will post this report to our website at http://www.epa.gov/oig.
Follow-Up Report: EPA Improves                                                                                               14-P-0321
Management of Its Radiation Monitoring System


                                     Table of Contents
   Purpose .....................................................................................................................   1

   Background ..............................................................................................................       1

   Scope and Methodology ...........................................................................................               3

   Results of Review .....................................................................................................         3

        Corrective Actions Are Now Completed and Recorded in the
          Official Agency Tracking System .......................................................................                  3

        EPA Actions on OIG Recommendations Resulted in Expanded
          and Increased RadNet Operational Readiness .................................................                             5

   Conclusion ................................................................................................................     6

   Agency Response and OIG Evaluation....................................................................                          6



 Appendix
   A       Distribution ......................................................................................................     7
Purpose
            We reviewed actions taken by the U.S. Environmental Protection Agency (EPA)
            to address the recommendations in the Office of Inspector General (OIG) Report
            No. 12-P-0417, Weaknesses in EPA’s Management of the Radiation Network
            System Demand Attention, issued April 19, 2012. We reviewed the status of the
            corrective actions for seven recommendations for which corrective actions were
            listed as completed in the EPA’s Management Audit Tracking System (MATS) as
            of January 10, 2014. The Assistant Administrator for the Office of Air and
            Radiation (OAR) and the Assistant Administrator for the Office of Administration
            and Resources Management (OARM) were the action officials for these
            recommendations.

Background
            The EPA’s nationwide radiation monitoring system (RadNet) is designed to
            measure ambient levels of radiation in the environment. The RadNet also
            measures large-scale atmospheric releases of radiation impacting large parts of the
            country and major population centers due to: large nuclear facility incidents or
            accidents, large foreign radiological incidents or accidents, radiological dispersion
            devices resulting in widely impacted areas (e.g., multi-county or larger), and
            nuclear weapon detonations. The RadNet regularly samples the nation’s air,
            precipitation, drinking water and pasteurized milk for a variety of radionuclides
            and radiation types.

            The RadNet system is managed by the National Analytical Radiation
            Environmental Laboratory (NAREL). The NAREL is part of the EPA’s Office of
            Radiation and Indoor Air, which is within the OAR. According to its website, the
            NAREL is a comprehensive environmental laboratory committed to developing
            and applying the most advanced methods for measuring environmental
            radioactivity and evaluating the risk to the public.

            This report, like its April 2012 predecessor, addresses the air-monitoring portion
            of the RadNet. To sample the air, the NAREL established a network that currently
            has 132 stationary air monitors. The EPA’s December 2004 “Critical
            Infrastructure and Key Resources Protection Plan” identified the RadNet monitors
            as critical infrastructure. Air monitors are located in the District of Columbia,
            Puerto Rico, and every state except South Carolina. Some states have more than
            one monitor. Figure 1 shows the locations of these monitors. Every hour each
            stationary monitor sends near-real-time measurements of beta and gamma
            radiation to the NAREL. Filters on the air monitors capture particles from the air
            (airborne particulates). Monitor operators collect the filters and send them to the
            NAREL for testing.




14-P-0321                                                                                      1
            Figure 1: Map showing the current location of RadNet air monitors
            Source: OIG analysis based on monitor locations provided by NAREL staff.


            The EPA OIG’s April 2012 audit report sought to determine whether the agency
            effectively implemented corrective actions to address the findings and
            recommendations from the previous EPA OIG Report No. 09-P-0087, EPA Plans
            for Managing Counter Terrorism/Emergency Response Equipment and Protecting
            Critical Assets Not Fully Implemented, issued January 27, 2009. The EPA OIG’s
            April 2012 report found that broken RadNet monitors and delayed filter changes
            impaired this critical infrastructure asset.

            The EPA’s management of the RadNet as a low priority, parts shortages, and
            insufficient contract oversight contributed to extensive delays fixing broken
            monitors. On March 11, 2011, at the time of the Fukushima, Japan, nuclear
            incident, 25 of the 124 RadNet monitors installed (20 percent) were out of service
            an average of 130 days. The service contractor completed repairs on all monitors
            by April 8, 2011. In addition, broken RadNet monitors and relaxed quality
            controls led to untimely filter changes. Six of the 12 RadNet monitors that the
            OIG sampled for its 2012 report had gone over 8 weeks in a 1-year period without
            a filter change. This is significant since out-of-service monitors and unchanged
            filters may reduce the quality and availability of critical data needed to assess
            radioactive threats to the public and the environment.

            According to EPA Manual 2750, Audit Management Procedures, EPA staff
            (i.e., the responsible office audit follow-up coordinator) tracks agency progress on
            the corrective actions resulting from OIG recommendations and updates the
            agency’s official audit-tracking system, or MATS, accordingly. When the
            responsible EPA action official completes corrective actions, the action official
            prepares a certification memorandum certifying that the actions were completed.
            Based on the certification memorandum, the audit follow-up coordinator from the
            responsible office enters the final action date in the MATS.


14-P-0321                                                                                      2
Scope and Methodology
            We performed our review from January through June 2014. We conducted this
            performance audit in accordance with generally accepted government auditing
            standards. Those standards require that we plan and perform the audit to obtain
            sufficient, appropriate evidence to provide a reasonable basis for our findings and
            conclusions based on our audit objectives. We believe that the evidence obtained
            provides a reasonable basis for our findings and conclusions based on our audit
            objectives.

            We interviewed EPA staff in the NAREL, OAR and OARM’s Office of
            Acquisition Management who were involved in implementing corrective actions
            for the seven recommendations we reviewed. We also reviewed various guidance
            documents, including EPA Manual 2750. In addition, we visited the NAREL in
            Montgomery, Alabama, to observe air monitors and other facility operations.

            We did not review corrective actions for one recommendation (recommendation 8)
            made in the EPA OIG’s April 2012 report because the corrective actions were not
            completed when we started our review. This recommendation involved tracking the
            installation of RadNet monitors against a revised schedule. We were told in
            May 2014 by the OAR Audit Follow-Up Coordinator that the completion of
            corrective actions for recommendation 8 is scheduled for September 2014.

Results of Review
            The OAR and the OARM completed and recorded corrective actions on seven
            recommendations made in the EPA OIG’s April 2012 report. Through these
            actions, the EPA increased the number of the RadNet fixed air monitors installed,
            which expanded system coverage. These actions also increased the RadNet
            system’s operational readiness.

            Corrective Actions Are Now Completed and Recorded in the
            Official Agency Tracking System

            Both the OAR and OARM completed corrective actions for the seven
            recommendations we reviewed, as summarized in table 1. Not all of the actions
            were reflected in the MATS as of January 10, 2014. However, during the course
            of our follow-up review EPA staff revised the MATS to include the most recent
            actions.

            With two exceptions, as of January 10, 2014, the MATS properly reflected the
            corrective actions taken at that time. As shown in table 1, the MATS was not
            current for actions taken on OIG recommendations 3 and 7. Regarding
            recommendation 3, the MATS did not reflect that the NAREL established a
            metric of 200 hours for changing the filters in the air monitors. To prevent blower
            motor damage, the RadNet air monitors are typically programmed to stop after


14-P-0321                                                                                     3
                200 hours of operation should the blower not be able to maintain air flow.
                Maintaining a set flow rate during sampling is a desirable operating goal. If a set
                air flow is not maintained, less material is collected during the sampling interval.
                Air flow issues may adversely affect the collection efficiency of the filter. At our
                request, the NAREL documented the 200-hour limit in a quality assurance project
                plan for the RadNet. Staff from the OAR revised the MATS in April 2014 to
                reflect the 200-hour limit.

                Regarding recommendation 7, the MATS incorrectly identified May 2012 as
                the date for the performance evaluation of delivery order three under contract
                EP-W-07-076. The OARM certification that this recommendation was complete
                was also incorrect, since the April 2013 date it cited was for an evaluation that
                was withdrawn shortly afterwards. The correct date for completing the
                performance evaluation of delivery order three is April 2014. Staff from the
                OARM revised the MATS in April 2014 to reflect recent corrective actions.

Table 1: Summary of actions completed and reported
                                                   Did the action officials   Were corrective actions
                                                   complete appropriate        properly reported in
                Recommendation                      corrective actions?              MATS?
 1.   Establish and enforce written                         Yes                        Yes
      expectations for RadNet operational
      readiness commensurate with its role in
      and importance to EPA’s mission.
 2.   Implement metrics for RadNet operational               Yes                       Yes
      readiness to be reviewed daily by NAREL,
      and periodically by OAR (at least monthly)
      and by the Deputy Administrator (as
      needed).
 3.   Direct that NAREL improve planning and                 Yes                        No
      management for RadNet.
 4.   Require follow-on RadNet contracts to                  Yes                       Yes
      include incentives/disincentives and a
      requirement for monthly progress reports.
 5.   Require the contracting officer and                    Yes                       Yes
      contracting officer representative to
      formally evaluate RadNet contractors’
      performance on an annual basis and
      enter information into Past Performance
      Information Retrieval System through
      Contractor Performance Assessment
      Reporting System.
 6.   Determine whether domestic contract                    Yes                       Yes
      options are available for crucial repair
      parts that are identified as only being
      available from a foreign subcontractor.
 7.   Review the information in MATS for the                 Yes                        No
      prior audit and ensure it is accurate and
      current.
Source: OIG analysis.




14-P-0321                                                                                               4
                 EPA Actions on OIG Recommendations Resulted in Expanded and
                 Increased RadNet Operational Readiness

                 Corrective actions taken by the EPA in response to our recommendations have
                 increased the availability of critical data needed to assess radioactive threats to the
                 public and the environment. There are more air monitors in the network now and
                 a greater percentage of the total monitors are operating properly. Table 2
                 compares some key operational factors from the prior report to the current
                 situation.

Table 2: Comparison of RadNet operational factors before and after corrective actions
                                               EPA OIG                  After corrective actions on
       Operational factor                  April 2012 report             2012 recommendations
 Number of stationary air
                                              124 monitors                      132 monitors
 monitors in RadNet.
 Percent of stationary monitors                                                    92.9%
                                                  80%
 operating (i.e., operational                                          (average of weekly reports for a
 readiness).                                 (on 3/11/2011)
                                                                              73-week period)
 Number of stationary monitors                                                  4.1 monitors
                                               24 monitors
 not operating for at least                                            (average of weekly reports for a
                                             (on 3/11/2011)
 14 days.                                                                     73-week period)
 For 12 randomly selected
 stationary monitors, number of                   728                                929
 filters analyzed during a 1-year        (5/1/2010 – 4/30/2011)            (1/1/2013 – 12/31/2013)
 period.
 For 12 randomly selected
 stationary monitors, longest                   339 days                           46 days
 number of days between filter           (5/1/2010 – 4/30/2011)            (1/1/2013 – 12/31/2013)
 changes.
Source: OIG analysis.


                 Since the EPA OIG’s April 2012 report, there are a larger number of installed
                 monitors in the network—132 monitors instead of 124. In addition, the NAREL
                 has eight more air monitors available for installation, which will bring the
                 network total up to 140 monitors. Locations in Paducah, Kentucky, and
                 Columbia, South Carolina, have been selected for two of the eight additional
                 monitors; the locations for the other six have not yet been decided.

                 Furthermore, the NAREL has increased the RadNet’s operational readiness. Our
                 analysis of weekly status reports provided by the NAREL covering a 73-week
                 period ending with the week of February 17, 2014, showed that an average of
                 92.9 percent of the air monitors were operational, up from 80 percent in
                 March 2011. For selected monitors over a 1-year period, the length of time that
                 individual monitors were not operating had been reduced, as evidenced by the
                 reduction in the longest number of days between filter changes. Similarly, the
                 operators sent more air filters from these monitors to be analyzed by the NAREL.



14-P-0321                                                                                                 5
Conclusion
            The OAR and the OARM completed corrective actions on the recommendations
            reviewed from EPA OIG Report No. 12-P-0417, and have now properly recorded
            their efforts in the MATS. As a result of these efforts, the stationary air-
            monitoring network increased its coverage and effectiveness. In addition,
            completing the corrective actions increased the EPA’s ability to assess radioactive
            threats to the public and the environment.

Agency Response and OIG Evaluation
            On June 24, 2014, the OAR and OARM responded that they appreciated the
            OIG’s efforts to assess whether the EPA is successfully addressing the
            recommendations in the OIG Report No. 12-P-0417 issued in April 2012. The
            OAR and OARM stated that they reviewed the draft report and had no further
            comment. Since the OAR and OARM completed corrective actions on the
            recommendations we reviewed and have now properly recorded their efforts in
            MATS, this final report is closed upon issuance.




14-P-0321                                                                                     6
                                                                                Appendix A

                                    Distribution
Office of the Administrator
Assistant Administrator for Air and Radiation
Assistant Administrator for Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Deputy Assistant Administrator for Air and Radiation
Principal Deputy Assistant Administrator for Administration and Resources Management
Director, Office of Radiation and Indoor Air, Office of Air and Radiation
Director, National Analytical Radiation Environmental Laboratory, Office of Air and Radiation
Director, Office of Acquisition Management, Office of Administration and
       Resources Management
Director, Office of Policy and Resource Management, Office of Administration and
       Resources Management
Deputy Director, Office of Policy and Resource Management, Office of Administration and
       Resources Management
Director, Office of Regional Operations
Audit Follow-Up Coordinator, Office of Air and Radiation
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Acquisition Management, Office of Administration and
       Resources Management




14-P-0321                                                                                   7
